b7c, b6
                                                        [-]
[-]
                                                                                      [-]
                                                                b7c, b6
            [-]
                                                                    [-]                     b7c, b6
                                       b7c, b6




                             b7c, b6                                                             [-]
                                                                          [-]
                                                                          b7c, b6
                                                     b7c, b6
b7c, b6                                                 [-]

                             b7c, b6
                                       b7c, b6
b7c, b6                                    b7c, b6
                                                                           b7c, b6
            b7c, b6     b7c, b6
                  b7c, b6
                                                               b7c, b6
                                                                                                       b7c, b6
                                                                     b7c, b6



                                                                            b7c, b6


                   b7c, b6
      b7c, b6
                             b7c, b6
                          b7c, b6




                                      b7c, b6
                    [-]                         [-]
                                    b7c, b6




b7c, b6
          b7c, b6
                                 b7c, b6
             b7c, b6




                                           b7c, b6


                       b7c, b6


                       b7c, b6
   b7c, b6




                                                     b7c, b6
b7c, b6
                         b7c, b6


          b7c, b6                                                            [-]
                                                                [-]                                        [-]
                                                                      [-]
                                      b7c, b6




            b7c, b6                                                                   [-]


                                      [-]
b7c, b6
                                                  b7c, b6
                                [-]
      b7c, b6




                                            b7c, b6                         [-]


                                                                                   b7c, b6
                                                                   b7c, b6
b7c, b6                                                     b7c, b6                         b7c, b6



                                                                                                 b7c, b6
                                                      b7c, b6

b7c, b6                                                                                 b7c, b6
                      b7c, b6
                                                                               b7c, b6




                                                               b7c, b6
          [-]




                                                                     b7c, b6


                     b7c, b6
                                                     b7c, b6
           [-]                                     [-]
            [-]                b7c, b6




                  b7c, b6

                                                                                   b7c, b6
                                                                         b7c, b6
b7c, b6                        b7c, b6
                                                                                    b7c, b6



                                         b7c, b6               [-]
                                                             b7c, b6

          b7c, b6                                                    b7c, b6




b7c, b6                                     b7c, b6
b7c, b6                                b7c, b6                       [-]                 b7c, b6
                                                                                        b7c, b6
                                       b7c, b6
                           [-]



b7c, b6                   [-]                              b7c, b6                        b7c, b6
                    [-]                                                      b7c, b6
            [-]                                  b7c, b6
b7c, b6




b7c, b6




                                                   b7c, b6                      [-]
                                                           b7c, b6                [-]


                                                                           b7c, b6
                                 [-]                                           b7c, b6              [-]
                           [-]                                            [-]             b7c, b6
                                           [-]
                                 b7c, b6
                                 b7c, b6
                                                                                b7c, b6

b7c, b6              [-]                         [-]




                                                       b7c, b6
          b7c, b6                                        b7c, b6
b7c, b6
                                     b7c, b6




            b7c, b6                [-]



                                                          [-]
b7c, b6
           b7c, b6
                                                                b7c, b6
                                    b7c, b6                            [-]
                                                                             b7c, b6
 b7c, b6



                      b7c, b6
[-]
                b7c, b6               b7c, b6
                                                                 b7c, b6
                                                                                                           b7c, b6




                                               b7c, b6
                   b7c, b6


                                                                                           b7c, b6


                                                                                           b7c, b6


                                                                                             b7c, b6
                                                     [-]
                  b7c, b6                                                  b7c, b6
                                    b7c, b6


                                           b7c, b6                             [-]


                                                                                                b7c, b6



                                          b7c, b6                                    [-]
                          b7c, b6                                                                    [-]
                                                                             [-]


b7c, b6                                                    [-]                                             [-]
                                     b7c, b6
                   b7c, b6      b7c, b6
          [-]
          b7c, b6                      [-]                                                           b7c, b6
                                                                                                b7c, b6
                                                   [-]




                                                                               b7c, b6
                                       b7c, b6                                       b7c, b6



                                                                     b7c, b6


                                  b7c, b6




b7c, b6                                                                                                         [-]
                                                                                      b7c, b6
                                 [-]                                                                            [-]
                                b7c, b6                        [-]
   [-]                                             [-]
                                  b7c, b6
                                                         [-]


b7c, b6
                                                                                                                      [-]
                                       [-]                                                                b7c, b6
                          [-]                [-]
         [-]
                                                                               [-]
                                                         b7c, b6                                          [-]
                    [-]
                                                                        b7c, b6
                           [-]                                    [-]
                                                                                           b7c, b6



 b7c, b6
                                                 [-]




                                                                   b7c, b6
                        b7c, b6
                                   b7c, b6



b7c, b6
                                             b7c, b6
                                   b7c, b6
                                                                                       b7c, b6
                                                 [-]

              b7c, b6


                                                                  b7c, b6               b7c, b6
                                     b7c, b6                                           b7c, b6
                                                                             b7c, b6


                                                        b7c, b6
                                                                             b7c, b6
                             [-]                                    b7c, b6
              b7c, b6                                                 b7c, b6
b7c, b6      b7c, b6
   b7c, b6                                                                                  [-]
                                                                                                     b7c, b6
b7c, b6                                       b7c, b6
b7c, b6



b7c, b6




b7c, b6
                                                              b7c, b6
 b7c, b6                                                                          [-]                       [-]



                 b7c, b6                   b7c, b6
                                     b7c, b6                                      [-]                        [-]
                                                     b7c, b6                                       b7c, b6
 b7c, b6
                                      b7c, b6                           b7c, b6
                                   b7c, b6
      b7c, b6                                                               b7c, b6
                                                                               b7c, b6                       [-]

b7c, b6                          b7c, b6                [-]                                          [-]
                [-]




                                                        b7c, b6
                           [-]
                                                        b7c, b6
[-]



b7c, b6



                                 b7c, b6




                                                b7c, b6
b7c, b6                                                                                  b7c, b6           b7c, b6
                                                                         b7c, b6


b7c, b6                         b7c, b6



                                                   b7c, b6
b7c, b6




b7c, b6                                                                        [-]
                                      [-]                                            b7c, b6             b7c, b6
                                                                                               b7c, b6
                                      b7c, b6                            [-]
                      [-]
                [-]                                                    b7c, b6



                                                     b7c, b6




                                                                     b7c, b6
                                [-]
            [-]                                                                        [-]
                                                               [-]




                                                                                                         b7c, b6
                                                  b7c, b6
                                            [-]
                      b7c, b6
          [-]
                                                                                                  b7c, b6
        [-]
                                             b7c, b6
                                             b7c, b6                                                                    [-]
                            b7c, b6                                                         [-]
                      b7c, b6
                                           b7c, b6
                                                                       b7c, b6
               [-]
                                b7c, b6                                                                             [-]
b7c, b6


                                                                          b7c, b6
                b7c, b6




b7c, b6                                                                                                                       [-]
                                           b7c, b6                      b7c, b6
b7c, b6
                                                   b7c, b6                        [-]
                                                                                        b7c, b6
                                                              [-]
                 b7c, b6                     [-]                                                                  [-]
                            [-]                                            b7c, b6                    [-]                           [-]
                                     [-]                                                                    [-]
                                                             b7c, b6                                              b7c, b6
                [-]


  [-]                                                 b7c, b6




              b7c, b6
                                                                                                    b7c, b6
                  [-]
                                                            b7c, b6


                                                          b7c, b6

 b7c, b6




                                                              b7c, b6


b7c, b6
                          b7c, b6                                               b7c, b6
                          [-]                                                           b7c, b6
                                              [-]
                b7c, b6
[-]                                       b7c, b6
      b7c, b6
                                b7c, b6                             [-]


                b7c, b6


                    b7c, b6                                               [-]
                                                                                  [-]
b7c, b6                                                                                             [-]

b7c, b6
b7c, b6                                             [-]


                     b7c, b6




                          b7c, b6



b7c, b6                                                                                   b7c, b6
 b7c, b6


                                                              b7c, b6




                               b7c, b6
                     b7c, b6




                                                                                 b7c, b6




                                                    b7c, b6

b7c, b6

              b7c, b6




                                                                                           b7c, b6



b7c, b6                                  b7c, b6
           b7c, b6                                 b7c, b6                     [-]
    b7c, b6                   [-]                                       b7c, b6
b7c, b6




                  b7c, b6


    b7c, b6             [-]
      b7c, b6                                                            [-]
b7c, b6
b7c, b6
b7c, b6                                                  b7c, b6
                                                                                [-]
                                   b7c, b6
b7c, b6                    [-]


                                 b7c, b6

b7c, b6

                                                                                            b7c, b6
                                                                                                           [-]
b7c, b6                                                                               b7c, b6
b7c, b6
                  b7c, b6
                                 b7c, b6



                                                              b7c, b6

b7c, b6




                                 b7c, b6


                       b7c, b6


             b7c, b6
                                                                               b7c, b6                    [-]
b7c, b6                                                                                               b7c, b6

   b7c, b6                                 b7c, b6                                                        b7c, b6
                                               b7c, b6




                          b7c, b6                                                                               b7c, b6
b7c, b6                                                                      b7c, b6
                            [-]
                   b7c, b6                                         b7c, b6
                             b7c, b6
             b7c, b6                                  b7c, b6




                                                                 b7c, b6




              b7c, b6


   b7c, b6                                                                 b7c, b6
b7c, b6
                                                                b7c, b6
b7c, b6                 b7c, b6



                                                                b7c, b6
b7c, b6                                b7c, b6
                                                 b7c, b6
b7c, b6                                                                     [-]
b7c, b6


                                            b7c, b6
                                                  b7c, b6
                                        b7c, b6



b7c, b6                                           b7c, b6
                              b7c, b6


          b7c, b6
                    b7c, b6
                                                                                       b7c, b6
 b7c, b6                                                                                      b7c, b6
                                                                       b7c, b6



                                                                                    b7c, b6
                     b7c, b6




                                                                                                          [-]
 b7c, b6




                                                             b7c, b6
                               b7c, b6
               b7c, b6




                                             b7c, b6
                 b7c, b6                                                 b7c, b6
                b7c, b6                                                            b7c, b6




     b7c, b6
                                                                                        b7c, b6
                                         b7c, b6                                                    [-]
b7c, b6




                                                   b7c, b6                                        [-]
b7c, b6                                                                b7c, b6
               b7c, b6
                                             b7c, b6




                               b7c, b6

                                                    b7c, b6

     b7c, b6


    b7c, b6




                                         b7c, b6
b7c, b6                                  b7c, b6
b7c, b6                                                                 b7c, b6
                                                              b7c, b6



                                                   b7c, b6




                         b7c, b6




           b7c, b6



                  b7c, b6
                         b7c, b6



                                                b7c, b6


b7c, b6                                                                                b7c, b6
                                    b7c, b6                                                   b7c, b6

           b7c, b6


                                                                 b7c, b6
      b7c, b6                                   [-]
                        b7c, b6                                                         [-]
      b7c, b6
b7c, b6


b7c, b6              b7c, b6              [-]                                          b7c, b6
                                    [-]
            [-]
                                                      b7c, b6
                          b7c, b6


                                            b7c, b6
                         [-]                                                           b7c, b6


                       b7c, b6                         [-]
                                                                   b7c, b6
                                                                             b7c, b6
                                                             b7c, b6                               [-]
                                                                                        [-]

b7c, b6                                                                    [-]
                           b7c, b6
            [-]




           b7c, b6
                     b7c, b6              [-]        [-]



                                                                       b7c, b6


                                                      b7c, b6
                                         [-]                           b7c, b6
                           [-]
                                                   b7c, b6
                                         b7c, b6                         b7c, b6
     [-]




                                                                       b7c, b6
b7c, b6




                               b7c, b6                                           b7c, b6
                                                             b7c, b6
            [-]
                                                                 b7c, b6
[-]




b7c, b6                            b7c, b6
                         b7c, b6


               b7c, b6                               b7c, b6


                                     b7c, b6   b7c, b6
            b7c, b6                                            b7c, b6




                                                               b7c, b6

                         b7c, b6




                                                     b7c, b6
          b7c, b6
                                  b7c, b6




b7c, b6
b7c, b6

                                                                   b7c, b6
                              b7c, b6




                                        b7c, b6
                                                    b7c, b6

b7c, b6                                           b7c, b6
                                                                        b7c, b6




                    b7c, b6




          b7c, b6
                                                              b7c, b6
                                                b7c, b6


                                      b7c, b6
          b7c, b6               [-]
                     [-]
          b7c, b6                       [-]                                 [-]




                                b7c, b6                   [-]



                b7c, b6
                      b7c, b6                                             b7c, b6
                                                                b7c, b6
b7c, b6
